                                              BUREAU OF INTERNATIONAL
                                              LABOR AFFAIRS



Office of Inspector General—Office of Audit




                                              ILAB COULD FURTHER IMPROVE OVERSIGHT
                                              OF ATTESTATION ENGAGEMENTS




                                                                        Date: March 31, 2009
                                                               Report Number: 05-09-004-01-070
U.S. Department of Labor                                   March 2009
Office of Inspector General
Office of Audit                                            ILAB Could Further Improve Oversight of
                                                           Attestation Engagements

BRIEFLY…                                                   WHAT OIG FOUND

Highlights of Report Number: 05-09-004-01-070 to the       The OIG found that ILAB did not (a) incorporate
Acting Deputy Under Secretary for International Labor      requirements needed to meet its quality assurance
Affairs                                                    policies and procedures in the IPA’s contract;
                                                           (b) systematically conduct and document reviews of IPA
WHY READ THE REPORT                                        attest documentation; or (c) require the IPA to submit
The Bureau of International Labor Affairs (ILAB) carries   external peer review reports. These weaknesses were
out the international responsibilities of the Department   partially offset by compensating controls which included
of Labor (DOL) under the direction of the Deputy Under     (a) a segregation of duties between monitoring staff and
Secretary for International Labor Affairs. Since 1995,     program staff, and (b) ILAB’s involvement in the
Congress has appropriated more than $660 million to        planning and report writing stages of each engagement.
ILAB’s Office of Child Labor, Forced Labor, and Human
Trafficking (OCFT) to support international child labor    In reviewing a sample of attest documentation prepared
research, raising awareness, and technical assistance      by the IPA in support of selected attestation
efforts. Currently, OCFT funds more than 120 child         engagements, we found (a) one report finding that was
labor technical assistance projects around the world       not supported by information contained in the attest
through 1) the International Labor Organization’s          documentation, and (b) multiple attest documents that
International Program on the Elimination of Child Labor,   had no evidence of review by an IPA supervisor.
2) DOL’s Child Labor Education Initiative (EI), and 3)
other cooperative agreements and technical assistance      Improved monitoring by ILAB would reduce the risk that
contracts.                                                 these deficiencies could occur without being timely
                                                           detected and corrected.
Each year the Office of Inspector General (OIG) reports
on major management challenges facing DOL. In these
annual reports, the OIG has repeatedly raised concerns     WHAT OIG RECOMMENDED
about the adequacy of single audits to meet the audit
coverage and financial management requirements of          The OIG recommended that ILAB:
DOL grantor agencies.
                                                           (1) Incorporate requirements needed to meet the
To address these concerns, ILAB has entered into a         policies and procedures related to its monitoring of the
Blanket Purchase Agreement (BPA) with an                   IPA’s work in the BPA.
Independent Public Accountant (IPA) to conduct
attestation engagements of selected EI projects. These     (2) Require OCFT to complete and document an
engagements determine whether the grantees are             appropriate review of IPA attest documentation.
complying with applicable financial regulations and
accurately measuring program performance.                  (3) Develop and implement a policy requiring the use of
                                                           external peer review reports in the selection and
WHY OIG CONDUCTED THE AUDIT                                ongoing monitoring of an IPA.
Since establishing the BPA, ILAB has obligated $3
million for the IPA to perform attestation engagements.    ILAB concurred with our recommendations and stated it
We reviewed ILAB’s process of monitoring and assuring      has initiated or planned several corrective actions.
the quality of the IPA’s work.

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response go to:

http://www.oig.dol.gov/public/reports/oa/2009/05-09-
004-01-070.pdf
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective - Were Monitoring Procedures Sufficiently Performed to Determine if
            Attestation Engagements Complied with Government Auditing
            Standards?................................................................................................. 3
         Finding 1 - ILAB should incorporate requirements needed to meet its
                     quality assurance policies and procedures in the IPA’s
                     contract............................................................................................... 3
         Finding 2 - ILAB should expand and document its reviews of IPA attest
                     documentation. ................................................................................... 4
         Finding 3 - ILAB should require the IPA to submit external peer review
                     reports. ............................................................................................... 5

Recommendations ........................................................................................................ 6

Appendices
         Appendix A Background ....................................................................................... 9
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 11
         Appendix C Acronyms and Abbreviations .......................................................... 15
         Appendix D ILAB Response to Draft Report....................................................... 17




                                                                                            ILAB Attestation Engagement
                                                                                            Report No. 05-09-004-01-070
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                     ILAB Attestation Engagement
                                     Report No. 05-09-004-01-070
                                                   U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                Office of Inspector General
                                                        Washington, D.C. 20210




March 31, 2009

                                  Assistant Inspector General’s Report



Ms. Marcia Eugenio
Acting Deputy Under Secretary
 for International Labor Affairs
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Since fiscal year (FY) 2004, the Bureau of International Labor Affairs (ILAB) has
obligated $3 million for an Independent Public Accounting Firm (IPA) to conduct
attestation engagements of cooperative agreements awarded through the Child Labor
Education Initiative (EI). ILAB requested that the Office of Inspector General (OIG)
review whether the IPA’s work met applicable Government Auditing Standards (GAS).
Since overseeing the IPA’s work is ILAB’s responsibility, we agreed to review ILAB’s
process of monitoring and assuring the quality of the IPA’s work.

ILAB’s Office of Child Labor, Forced Labor and Human Trafficking (OCFT), funds
technical assistance projects throughout the world, including EI. This program aims to
eliminate child labor through programs that improve access to basic education in
international areas with a high rate of abusive and exploitative child labor. In FYs 2004
through 2008, OCFT awarded 30 cooperative agreements totaling $134,269,715 for the
EI program through a competitive bidding process.

Within its oversight role, ILAB has entered into a Blanket Purchase Agreement (BPA)
with an IPA to conduct attestation engagements 1 of selected EI projects. These
engagements determine whether the cooperative agreement recipients are complying
with applicable financial regulations and accurately measuring program performance.
Under terms of the BPA, these engagements and the resulting reports must comply with
GAS.




1
    Attestation engagements concern examining, reviewing, or performing agreed-upon procedures on a subject matter
    or an assertion about a subject matter and reporting on the results. The subject matter of an attestation engagement
    may take many forms, including historical or prospective performance or condition, physical characteristics,
    historical events, analyses, systems and processes, or behavior. Attestation engagements can cover a broad range
    of financial or non-financial subjects and can be part of a financial audit or performance audit. GAO-03-673G
    Government Auditing Standards

                                                                                      ILAB Attestation Engagements
                                                            1                          Report No. 05-09-004-01-070
                                      U. S. Department of Labor – Office of Inspector General


We conducted an audit to determine the following:

Were monitoring procedures sufficiently performed to determine if attestation
engagements complied with Government Auditing Standards?

We assessed ILAB’s monitoring procedures, controls, and related documentation for
attestation engagements conducted by its IPA from FYs 2004 through 2008.

To accomplish our audit objective, we reviewed applicable GAS relating to attestation
engagements. We interviewed ILAB officials responsible for the monitoring function and
reviewed available documentation to assess ILAB’s compliance with its procedures.

We reviewed ILAB’s most recent Request for Proposal to determine if it included
elements that would assist in the selection of a qualified IPA to conduct attestation
engagements. We also reviewed the BPA between ILAB and the selected IPA to
determine if it included the elements needed to assist the IPA in determining accuracy
and reliability of grantees’ financial and performance data. We reviewed work performed
by the IPA to determine its compliance with the BPA.

We randomly selected a sample of 12 attestation engagements from a population of 25
attestation reports issued during our audit period. For each selected report, we reviewed
the associated attest documentation prepared by the IPA, and documented evidence of
ILAB’s monitoring to determine if the attestations were conducted in accordance with
applicable standards and ILAB requirements.

RESULTS IN BRIEF

While ILAB’s monitoring procedures and activities provided assurance that attestation
engagements conducted by the IPA are meeting GAS, improvements could increase
that assurance. Specifically, ILAB should: (a) incorporate into the BPA requirements
needed to meet the policies and procedures related to its review of the quality of the
IPA’s work; (b) expand and document its reviews of IPA attest documentation; and
(c) use external peer review reports in selecting and monitoring the IPA.

In responding to our draft audit report, ILAB generally concurred with our findings and
recommendations, but stated that it believed Finding #1 did not clearly or precisely
present the nature of the issue. ILAB’s response also emphasized the proactive nature
of its efforts to assure the quality of the IPA’s work, and included a suggestion that the
audit report should include a finding regarding the inability of the grant officer in the
Department of Labor’s (DOL) Office of the Assistant Secretary for Administration and
Management (OASAM) to provide contract and audit resolution documentation
requested by the OIG auditors.




                                                                 ILAB Attestation Engagements
                                             2                    Report No. 05-09-004-01-070
                                                    U. S. Department of Labor – Office of Inspector General


In response to ILAB’s concerns about the clarity of Finding #1, we revised the wording
of the finding and the related recommendation (#1). ILAB must include in the IPA’s
contract those tasks that the IPA is required to complete to allow ILAB to perform its
prescribed quality assurance tasks.

This report does not contain any recommendation to OASAM because our audit
examined ILAB’s monitoring procedures. We did not perform audit tasks designed to
evaluate OASAM’s functions.


RESULTS AND FINDINGS

Objective - Were Monitoring Procedures Sufficiently Performed to Determine if
            Attestation Engagements Complied with Government Auditing
            Standards?

While ILAB performed monitoring procedures to provide assurance that the attestation
engagements of the EI projects were conducted in compliance with applicable GAS,
improvements could increase that assurance.

ILAB should: (a) incorporate the policies and procedures related to requirements
needed to meet the monitoring of the IPA’s work in the BPA; (b) expand and document
its reviews of IPA attest documentation; and (c) use external peer review reports in
selecting and monitoring the IPA.

Finding 1 - ILAB should incorporate requirements needed to meet its quality
              assurance policies and procedures in the IPA’s contract.

IPA contracts did not include -- specifically or by reference -- requirements of ILAB’s
quality assurance policies and procedures. For example, to facilitate ILAB’s
determination that audit findings were adequately supported, its quality assurance
procedures called for the IPA to provide a copy of each draft examination report that
had been cross-referenced 2 to the audit attest documentation. Specifically, ICLP’s Staff
Operations Manual contains a “Check Sheet for Review of Examination Reports on
Attestation Engagements” (Appendix 6.4). Item 8 in this check sheet states “Did the
working papers include adequate documentation to support the findings presented in
the examination report…?” The accompanying “Instructions for Preparation of
Examination Report Check Sheet” state “The auditor’s working papers should include a
copy of the draft examination report cross-referenced to the working papers to facilitate
the review.” However, a requirement to prepare a cross-referenced report was not
contained in the IPA’s contract.

As a result, the IPA was unaware of the requirement and did not prepare or provide to
ILAB a cross-referenced draft report on any of the engagements in our audit sample.

2
    A cross-referenced draft report identifies the specific documentation used to support information contained in the
    report.

                                                                                       ILAB Attestation Engagements
                                                             3                          Report No. 05-09-004-01-070
                                                    U. S. Department of Labor – Office of Inspector General


ILAB staff had not noted the absence of a cross-referenced draft report because they
had not regularly reviewed the IPA’s attest documentation (see Finding 2).

Contracting documents must clearly and fully define required tasks to assure the
contractor’s complete performance at the agreed-upon price. The omission of quality
assurance requirements from the contract may prevent ILAB from obtaining needed
services, or result in an additional, unexpected contract cost. In this specific example,
the absence of a cross-referenced draft report could prohibit ILAB from verifying that
reports were properly supported. At a minimum, it could increase the time and effort
needed by ILAB to complete its quality assurance procedures.

In responding to our draft audit report, ILAB stated that it will incorporate in future
solicitations and contracts a summary of key policies and procedures related to its
monitoring of the IPA’s work. However, we believe that, rather than including its policies
and procedures in the IPA contract, the contract should define the tasks that the IPA
must complete that will allow ILAB to perform its quality assurance procedures.


Finding 2 - ILAB should expand and document its reviews of IPA attest
documentation.

Although ILAB had well-defined quality assurance policies and procedures, it did not
comply with its policy to review the IPA’s attest documentation to determine that all
findings were identified and reported; conclusions were adequately supported; and the
work was properly supervised.

GAS 6.21 requires auditors to prepare documentation sufficient to enable an
experienced auditor to understand the procedures performed, the evidence obtained,
and the conclusions reached. GAS 6.22 also requires evidence of supervisory review of
the work performed.

ILAB has initiated a collection of controls to assist with ensuring that the attestation
engagements conducted by the IPA are meeting GAS. These controls include
(a) developing policies and procedures for monitoring and reviewing the IPA’s work;
(b) establishing segregation of duties between monitoring staff and program staff; and
(c) maintaining close involvement in the planning and report writing stages of each
engagement. One specific control procedure contained in OCFT’s operations manual
states that the Contracting Officer’s Technical Representative and/or Grant Officer
Technical Representative/project manager should review the auditors’ attest
documentation related to specific findings 3 . While ILAB officials stated that they
examined supporting documentation for selected report findings, we found no record to
substantiate this assertion.


3
    Findings for which attest documentation should be reviewed include those that (a) involve significant questioned
    costs, (b) are unclear, (c) are inconsistent with OCFT’s information about a grantee or project, and (d) were the
    subject of disagreement between the grantee staff and the auditors at the project level exit conference.

                                                                                      ILAB Attestation Engagements
                                                             4                         Report No. 05-09-004-01-070
                                     U. S. Department of Labor – Office of Inspector General


ILAB officials stated that, despite the content of their operations manual, it was never
their intention to require a review of attest documentation supporting the findings in
every IPA report. They believed that the volume of attest documentation and ILAB’s
limited resources made this impractical. However, without evidence that ILAB performed
a systematic review of the IPA’s attest documentation, ILAB was not able to
demonstrate that the IPA’s work was complete, accurate, or fully met professional
standards.

Our review of attest documentation from a sample of the IPA’s attestation engagements
identified deficiencies in accuracy and supervisory oversight which ILAB might have
detected if it had performed a systematic review of the IPA’s attest documentation. For
example:

   •   One of 12 attestation engagements in our audit sample contained a finding that
       was not adequately supported in the IPA’s attest documentation. The report
       identified payments of $7,117 as disallowable under terms of the cooperative
       agreement. However, the related attest documentation supported disallowing
       payments of only $3,607. The IPA was unable to explain the discrepancy. Thus,
       the report finding was overstated by $3,510.

   •   Four of the 12 attestation engagements in our audit sample contained attest
       documentation (ranging from 4 to 17 documents) that had no evidence of
       supervisory review. Some of those attest documents were used to support
       findings reported in the IPA’s report to ILAB.

Defining and implementing a systematic review of the IPA attest documentation would
provide ILAB the assurance that the IPA’s reports accurately contain all appropriate
findings and that the underlying work meets professional standards.

In responding to our draft audit report, ILAB stated that it will revise its Operations
Manual to define more precisely the extent of ILAB’s review of the IPA’s working papers
and the circumstances that warrant such a review. When completed, this action will
address our recommendation.


Finding 3 - ILAB should require the IPA to submit external peer review reports.

ILAB did not require IPAs to submit an external peer review report in responding to the
Request for Proposal. Additionally, the executed contract did not require the selected
IPA to submit updated peer review reports during the life of the contract.

GAS states that external peer review reports and letters of comment may be relevant to
decisions on procuring audit or attestation engagements. Therefore, audit organizations
seeking to enter into a contract to perform an audit or attestation engagement in
accordance with GAS should provide the audit organization’s most recent peer review



                                                                ILAB Attestation Engagements
                                            5                    Report No. 05-09-004-01-070
                                        U. S. Department of Labor – Office of Inspector General


report and any letter of comment, and any subsequent peer review reports and letters of
comment received during the period of the contract.

ILAB staff indicated that the IPA’s peer review report(s) were not a criterion in the
agency’s technical evaluation process prior to making recommendation to the
Contracting Officer for selection of attestation services.

The external peer review reports (2003 and 2006) for the IPA selected by ILAB stated
that its work met GAS. However, a related letter of comment, that accompanied the
2006 external peer review report, noted some deficiencies. These included incidents in
which: (a) report presentation did not meet current professional standards; (b) fraud risk
was not documented; (c) reasons for not confirming certain receivables was not
explained; (d) documents and matters examined or considered to reach certain audit
conclusions were not identified; and (e) cross referencing of attest documentation was
incomplete.

Information contained in an IPA’s external peer review and related letters of comment
would reduce the risk that ILAB would enter into a contract with an unqualified firm. It
would also provide ILAB with information that could be used in focusing its own
monitoring efforts on previously identified deficiencies.

In responding to our draft audit report, ILAB stated that it will revise future solicitations to
require (a) the application package to include an IPA’s most recent peer review report
and related letter of comment, and (b) the selected IPA contractor to provide ILAB with
a copy of each external peer review report and related letter of comment that the IPA
receives during the course of the contract. When completed, this action will address our
recommendation.


Recommendations

We recommend that ILAB:

1. Incorporate requirements needed to meet the policies and procedures related to its
   monitoring of the IPA’s work in the BPA.

2. Expand and document its reviews of IPA attest documentation.

3. Request external peer review reports in future IPA solicitations and consider them in
   the selection and ongoing monitoring of an IPA.



Elliot P. Lewis




                                                                    ILAB Attestation Engagements
                                               6                     Report No. 05-09-004-01-070
             U. S. Department of Labor – Office of Inspector General




Appendices




                                        ILAB Attestation Engagements
                    7                    Report No. 05-09-004-01-070
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    ILAB Attestation Engagements
                8                    Report No. 05-09-004-01-070
                                       U. S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

ILAB carries out the international responsibilities of DOL under the direction of the
Deputy Undersecretary for International Labor Affairs. ILAB conducts research on and
formulates international economic, trade, immigration, and labor policies in collaboration
with other U.S. Government agencies. ILAB also provides international technical
assistance in support of U.S. foreign labor policy objectives. ILAB works with other
government agencies to create an improved international economic system in which all
workers can achieve greater economic security, and share in the benefits of increased
international trade. ILAB also helps create safer and healthier workplaces where the
basic rights of workers and children are respected and protected.

ILAB’s OCFT funds more than 120 child labor technical assistance projects around the
world through 1) the International Labor Organization’s International Program on the
Elimination of Child Labor (IPEC), 2) DOL’s Child Labor Education Initiative, and
3) other cooperative agreements and technical assistance contracts. Since 1995,
Congress has appropriated more than $660 million to OCFT to support international
child labor research, raising awareness, and technical assistance efforts.

The EI focuses uniquely on the strong link between child labor and a lack of available
educational opportunities. The goal of the EI is to ensure that children withdrawn from
child labor or at risk of working receive quality basic education. After identifying recipient
countries, the EI conducts needs assessments to identify gaps between existing efforts
in the area of child labor and education systems’ capacity to provide quality and relevant
education. EI grants are awarded to a variety of agencies, including international
organizations and local and international non-governmental organizations selected
through a competitive bidding process. Where possible, EI projects complement and
support ongoing U.S.-funded IPEC projects and/or other EI or U.S. Government
projects. A total of 30 cooperative agreements totaling $134,269,715 were issued for
the EI program in FYs 2004 through FY 2008.

The Government Performance and Results Act of 1993 requires U.S. Government
agencies to prepare and periodically update a strategic plan, including program goals
and performance measurements. Each agency publishes an annual Performance and
Accountability Report detailing its performance in relation to its goals. This report is
made available to Congress, the Office of Management and Budget (OMB), and the
general public. DOL’s strategic plan included a goal for OCFT to contribute to the
elimination of the worst forms of child labor internationally. OCFT assessed its
achievement of this goal by computing (1) the number of children prevented or
withdrawn from child labor and provided education or training opportunities as a result
of DOL-funded child labor elimination projects and (2) the number of countries with
increased capacities to address child labor as a result of DOL-funded child labor
elimination projects.




                                                                  ILAB Attestation Engagements
                                              9                    Report No. 05-09-004-01-070
                                      U. S. Department of Labor – Office of Inspector General


In the FY 2007 DOL Annual Report, the Department stated that it faces unique
challenges in assuring the reliability of its performance data due to the fact that much of
the data is generated by states and other sources below the Federal level.

In order to respond to OIG’s major management challenges concerning the limitations
of single audits for DOL grantor agencies and to verify the data received from the
organizations receiving its cooperative agreements, ILAB/OCFT has entered into a BPA
with an IPA to conduct attestation engagements of selected OCFT Education Initiative
projects. The purpose of the attestation engagements is to determine whether the
recipients are complying with the terms of their cooperative agreements and related
DOL regulations; to ensure that financial reports received from the grantees are
accurate and reliable; and to assess the accuracy and reliability of the performance data
from the recipients’ progress reports that support OCFT’s performance goals and
measures.

The IPA is required to meet GAS in performing its work. This includes preparing attest
documentation to document the work performed and to support findings reported in a
written examination report. ILAB has established policies and procedures to monitor the
IPA’s work.




                                                                 ILAB Attestation Engagements
                                            10                    Report No. 05-09-004-01-070
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit was designed to answer the following question:

Were monitoring procedures sufficiently performed to determine if attestation
engagements complied with Government Auditing Standards?

Scope

We reviewed ILAB’s policies, procedures, controls, and documentation related to its
oversight of attestation engagements conducted by the IPA during FYs 2004 through
2008. We also analyzed a statistical sample (12 of 25) of attestation engagements
conducted by the IPA during this period, including the issued reports and supporting
attest documentation.

Our assessment of internal controls focused only on those controls related to our audit
objective. Our assessment was not intended to form an opinion on the adequacy of
internal controls overall; we do not render such an opinion.

Our fieldwork was conducted at ILAB’s headquarters and the office of the IPA, both
located in Washington, D.C.

Methodology

We identified professional standards applicable to attestation engagements. We
evaluated ILAB’s procedures for monitoring the quality of the IPA’s work to determine if
those procedures were sufficient to assess the IPA’s compliance with applicable
professional standards. We reviewed ILAB’s internal procedures to determine the
adequacy of the procedures to address IPA non-compliance with BPA requirements.
We also assessed whether ILAB followed those procedures when it identified non-
compliances.

We reviewed the BPA between ILAB and the IPA to determine if it included elements
that would allow ILAB to adequately monitor and assure the quality of the IPA’s work.
We also determined the IPA’s compliance with the BPA and how ILAB addressed
instances of non-compliance, if any.

We reviewed the IPA attest documentation related to a sample of attestation
engagement reports issued from FYs 2004 through 2008 to assess the IPA’s
compliance with GAS. To identify the audit universe, we obtained a list of all attestation
engagements conducted by the IPA from FYs 2004 – 2008. There were a total of
30 conducted during this period. We excluded 5 of these engagements from the audit
universe because they were evaluations of contracts and did not include opinions on the


                                                                ILAB Attestation Engagements
                                           11                    Report No. 05-09-004-01-070
                                       U. S. Department of Labor – Office of Inspector General


accuracy and reliability of the grantees’ financial and performance data. We arranged
the remaining 25 attestation engagements into four strata based on dollar amount of the
cooperative agreement. From the four strata, we selected a random sample of 12
attestation engagements.

For each attestation engagement selected, we obtained the associated final report and
supporting attest documentation. We examined the attest documentation for evidence
that the IPA met GAS that were applicable to attestation engagements such as
independence, auditor qualifications, due professional care, quality control, and
planning and supervision.

Each report contained multiple findings which were classified as significant or
non-significant. For each significant finding in our selected engagements, we examined
the supporting IPA attest documentation to determine that they contained adequate
support for the selected findings.

We also examined ILAB’s efforts to support its grant officer in the OASAM Office of
Procurement Services in fulfilling the grant officer’s responsibilities for resolving report
findings. We could not obtain the official BPA and resolution documentation from
OASAM in a timely manner and, therefore, had to rely on ILAB to provide these
documents.

We conducted this performance audit in accordance with GAS. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Criteria

We used the following criteria to accomplish our audit:

   • OMB Circular No. A-133,
       Audits of States, Local Governments, and Non-Profit Organizations, dated
       June 27, 2003.

   • OMB Circular No. A-122,
       Costs Principles for Non-Profit Organizations, dated May 10, 2004

   • Uniform Administrative Requirements:
       Title 29, Code of Federal Regulations, Part 95, Grants and Agreements with
       Institutions of Higher Education, Hospitals and other Non-Profit Organizations,
       dated July 1, 1997

   • International Child Labor Program Operations Manual - 2006

                                                                   ILAB Attestation Engagements
                                              12                    Report No. 05-09-004-01-070
                                U. S. Department of Labor – Office of Inspector General



•   Government Auditing Standards (Yellow Book), July 2007 Revision

•   U. S. Department of Labor Manual Series, Chapter 500
    Audit Resolution, Closure, and Follow-up

•   OMB Circular No. A-50, Audit Follow-up, dated September 29, 1982




                                                           ILAB Attestation Engagements
                                      13                    Report No. 05-09-004-01-070
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    ILAB Attestation Engagements
               14                    Report No. 05-09-004-01-070
                                 U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

BPA             Blanket Purchase Agreement

DOL             Department of Labor

EI              Child Labor Education Initiative

FY              Fiscal Year

GAS             Government Auditing Standards

ILAB            Bureau of International Labor Affairs

IPA             Independent Public Accounting Firm

IPEC            International Program on the Elimination of Child Labor

OASAM           Office of the Assistant Secretary for Administration and
                Management

OCFT            Office of Child Labor, Forced Labor and Human Trafficking

OIG             Office of Inspector General

OMB             Office of Management and Budget




                                                            ILAB Attestation Engagements
                                       15                    Report No. 05-09-004-01-070
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                    ILAB Attestation Engagements
               16                    Report No. 05-09-004-01-070
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix D
ILAB Response to Draft Report




                                                           ILAB Attestation Engagements
                                      17                    Report No. 05-09-004-01-070
U. S. Department of Labor – Office of Inspector General




                           ILAB Attestation Engagements
      18                    Report No. 05-09-004-01-070
U. S. Department of Labor – Office of Inspector General




                           ILAB Attestation Engagements
      19                    Report No. 05-09-004-01-070
